                                                       National Railroad Passenger Corporation
                                                       Office of Inspector General
                                                       10 G Street, N.E.
                                                       Washington, DC 20002



                                         .
                    MARC Passenger Uses Counterfeit Monthly Tickets
                                Case Number 08-079
                                    May 4, 2010

A source reported that a MARC passenger was using counterfeit monthly MARC tickets.
Investigation revealed that a passenger used 32 counterfeit monthly tickets over a 17 month
period. The passenger agreed to make restitution to Amtrak in the amount of $5,600.
